June 3, 2020
Writer’s Direct Contact
(202) 220-1101
(213) 683-4007 FAX
Donald.Verrilli@mto.com

Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street N.E.
Washington, D.C. 20543
Re:
Comcast Corporation et al. v. International Trade Commission, No. 19-1173
Dear Mr. Harris:
I write with regard to the supplemental brief filed by respondents Rovi
Corporation and Rovi Guides yesterday, June 2, 2020, in the above-captioned case. The
supplemental brief appears to have been filed in violation of this Court’s Rule 15.8, which
permits parties to file supplemental briefs only to bring to the Court’s attention “new cases, new
legislation, or other intervening matter not available at the time of the party’s last filing,” and
states that “supplemental brief[s] shall be restricted to new matter.” Nonetheless, to spare the
Court the need to rule on a motion to strike, petitioners will respond to the supplemental brief in
their reply brief.
Thank you very much for your time and assistance on this matter.
Very truly yours,
/s/ Donald B. Verrilli, Jr.
Donald B. Verrilli, Jr.
cc:

Counsel of record

